<html>
<title> - KOLEVAR NOMINATION</title>
<body><pre>[Senate Hearing 109-786]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 109-786

                           KOLEVAR NOMINATION

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                                   on

THE NOMINATION OF KEVIN M. KOLEVAR TO BE ASSISTANT SECRETARY OF ENERGY 
            FOR ELECTRICITY DELIVERY AND ENERGY RELIABILITY

                               __________

                           NOVEMBER 16, 2006


                       Printed for the use of the
               Committee on Energy and Natural Resources












                    U.S. GOVERNMENT PRINTING OFFICE

32-819 PDF                  WASHINGTON : 2007
------------------------------------------------------------------
For sale by Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800;
DC area (202) 512-1800 Fax:  (202) 512-2250. Mail:  Stop SSOP, 
Washington, DC 20402-0001















               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                 PETE V. DOMENICI, New Mexico, Chairman
LARRY E. CRAIG, Idaho                JEFF BINGAMAN, New Mexico
CRAIG THOMAS, Wyoming                DANIEL K. AKAKA, Hawaii
LAMAR ALEXANDER, Tennessee           BYRON L. DORGAN, North Dakota
LISA MURKOWSKI, Alaska               RON WYDEN, Oregon
RICHARD BURR, North Carolina         TIM JOHNSON, South Dakota
MEL MARTINEZ, Florida                MARY L. LANDRIEU, Louisiana
JAMES M. TALENT, Missouri            DIANNE FEINSTEIN, California
CONRAD BURNS, Montana                MARIA CANTWELL, Washington
GEORGE ALLEN, Virginia               KEN SALAZAR, Colorado
GORDON SMITH, Oregon                 ROBERT MENENDEZ, New Jersey
JIM BUNNING, Kentucky
                  Frank J. Macchiarola, Staff Director
                   Judith K. Pensabene, Chief Counsel
               Robert M. Simon, Democratic Staff Director
                Sam E. Fowler, Democratic Chief Counsel





















                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Domenici, Hon. Pete V., U.S. Senator from New Mexico.............     1
Kolevar, Kevin M., nominee to be Assistant Secretary for 
  Electricity Delivery and Energy Reliability, Department of 
  Energy.........................................................     2

                                APPENDIX

Responses to additional questions................................    11










 
                           KOLEVAR NOMINATION

                              ----------                              


                      THURSDAY, NOVEMBER 16, 2006

                                       U.S. Senate,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:07 a.m., in 
room SD-366, Dirksen Senate Office Building, Hon. Pete V. 
Domenici, chairman, presiding.

 OPENING STATEMENT OF HON. PETE V. DOMENICI, U.S. SENATOR FROM 
                           NEW MEXICO

    The Chairman. The nomination of Kevin M. Kolevar to be the 
Assistant Secretary for Electricity Delivery and Energy 
Reliability at the Department of Energy.
    First, I note with pleasure the presence in the audience of 
the Secretary of Energy, Sam Bodman. Mr. Secretary, it's a 
pleasure to have you here. I note, for the record, that you 
have been present for a number of the confirmation hearings of 
your deputies and assistants, and I think it should serve well, 
in terms of the relationship that exists, and will exist, in 
your office.
    We are here today to consider the nomination of Kevin 
Kolevar to be Assistant Secretary for Electricity Delivery and 
Energy Reliability at the Department of Energy.
    Mr. Kolevar, I also welcome you to the committee for this 
hearing to consider your nomination. As you know, we spent 
significant time and effort fashioning the electricity 
provisions of the Energy Policy Act last year. And FERC has 
expended a like amount of effort in producing implementing 
regulations since the bill's enactment. That's because our 
electricity system is the bedrock of our country's economy and 
our citizens' well-being. So, the issues you will be charged 
with administering are very important to all of us on this 
committee, and I encourage you to keep that in mind as you 
fulfill your duties, if you are confirmed in this position.
    Now, before we begin, do you have family or other guests 
present who you would like to introduce?
    Mr. Kolevar. Yes, Mr. Chairman. Thank you.
    I have with me today my wife, Stephani.
    The Chairman. Stephani, would you stand, please? Thank you.
    Mr. Kolevar. And my son, Jake.
    The Chairman. And would you stand, please? And how old are 
you?
    Jake Kolevar. Six.
    The Chairman. Six. Well, we welcome you, and thank you very 
much for coming. Now, do you have any others, sir?
    Mr. Kolevar. No, sir.
    The Chairman. Fine.
    And the rules of the committee--which apply to all 
nominees--require that they be sworn in connection with their 
testimony. Please rise and raise your right hand.
    Do you swear that the testimony you are about to give to 
the Senate Committee on Energy and Natural Resources shall be 
the truth, the whole truth, and nothing but the truth?
    Mr. Kolevar. I do.
    The Chairman. Please be seated.
    Before you begin your statement, I will ask you three 
questions that are addressed to each nominee before this 
committee.
    Will you be available to appear before this committee and 
other congressional committees to represent departmental 
positions and respond to the issues of concern to the Congress?
    Mr. Kolevar. I will.
    The Chairman. Are you aware of any personal holdings, 
investments, or interests that could constitute a conflict, or 
create the appearance of such a conflict, should you be 
confirmed and assume the office to which you have been 
nominated by the President?
    Mr. Kolevar. Mr. Chairman, my investments, personal 
holdings, and other interests have been reviewed both by myself 
and the appropriate ethics counselors within the Federal 
Government. I have taken appropriate action to avoid any 
conflicts of interest. There are no conflicts of interest, or 
appearances thereof, to my knowledge.
    The Chairman. Are you involved--or do you have any assets 
held in blind trust?
    Mr. Kolevar. No, sir.
    The Chairman. Now, there are two Senators present. I 
assume, Senators, we will proceed in the normal manner. All 
right.
    And, sir, would you proceed to give your testimony to the 
committee?

    TESTIMONY OF KEVIN M. KOLEVAR, NOMINEE TO BE ASSISTANT 
  SECRETARY FOR ELECTRICITY DELIVERY AND ENERGY RELIABILITY, 
                      DEPARTMENT OF ENERGY

    Mr. Kolevar. Thank you, Mr. Chairman, Senator Bingaman, and 
members of the committee. It is a great honor for me to appear 
before you today as the President's nominee to be Assistant 
Secretary for Electricity Delivery and Energy Reliability at 
the U.S. Department of Energy. I appreciate the committee 
holding this hearing and for considering my nomination. I also 
want to thank Secretary Bodman for being here this morning and 
for recommending me to the President for this position. If 
confirmed, it would be my privilege to work with this committee 
and with Congress, as well as my colleagues within the Bush 
administration, to carry out the Department of Energy's many 
important responsibilities in electricity and energy 
reliability.
    I'd like to introduce my wife, Stephani, my son, Jake, and 
my daughter, Jessica. Stephani is my partner and best friend, 
and I would not be here today were it not for her constant 
encouragement and support.
    I want to, again, thank President Bush and Secretary Bodman 
for the trust they have placed in me, and the committee, for 
holding this hearing and considering my nomination. If 
confirmed, I commit that I will do everything I can to help the 
Department accomplish its missions, which are so critical to 
the Nation's safety and security. It would be an honor and 
privilege for me to serve the American people as an Assistant 
Secretary for the U.S. Department of Energy.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Kolevar follows:]
    Prepared Statement of Kevin M. Kolevar, Nominee to be Assistant 
Secretary for Electricity Delivery & Energy Reliability, Department of 
                                 Energy
    Mr. Chairman, Senator Bingaman, and members of the committee, it is 
a great honor for me to appear before you today as the President's 
nominee to be Assistant Secretary for Electricity Delivery and Energy 
Reliability at the U.S. Department of Energy. I appreciate the 
committee holding this hearing and for considering my nomination. I 
also want to thank Secretary Bodman and Deputy Secretary Sell for being 
here this morning, and for recommending me to the President for this 
position. If confirmed, it would be my privilege to work with this 
Committee and the Congress, as well as my colleagues within the Bush 
Administration, to carry out the Department of Energy's many important 
responsibilities in electricity and energy reliability.
    I would like to introduce my wife, Stephani Kolevar, my son Jake 
and my daughter Jessica. Stephani is my partner and best friend, and I 
would not be here today were it not for her constant encouragement and 
support. I would like to also introduce my parents, Robert and Judy 
Kolevar, and my siblings Brian and Kristin Kolevar. My mother and 
father spent their entire careers in service to the public; my father 
dedicated himself to law enforcement as a federal agent with the FBI, 
while my mother chose a career in medicine as a pediatric nurse. They 
instilled in me from my earliest memory a sense of civic duty and 
responsibility. It is because of them that I entered public service and 
why I seek to continue and help take on the great challenge of meeting 
this nation's energy needs reliably, efficiently, and with sensitivity 
to the environment.
    I currently serve as the Director of the Office of Electricity 
Delivery and Energy Reliability, which was established in 2005 to lead 
the national efforts to modernize the electric grid; implement national 
policy to increase grid capacity and reliability; improve the security 
and resiliency of the energy infrastructure; and facilitate the 
recovery from disruptions in the energy sector.
    Prior to this position, I served at the Department of Energy as the 
Chief of Staff to then Deputy Secretary Kyle McSlarrow and as a Senior 
Policy Advisor to Secretary Abraham. Before joining the Department of 
Energy, I spent over ten years serving as U.S. Senate staff in the 
offices of Senators Spencer Abraham and Connie Mack. My work at the 
Department of Energy has given me a great appreciation for the 
importance and difficulty of the national missions undertaken by the 
Department. My decade of work in the Senate has ingrained in me the 
deepest respect and honor for this great institution.
    In each of these capacities, I have worked with the staff of this 
Committee and some of the Committee's Members on a variety of matters. 
I look forward to continuing to work with the Committee, in my present 
position and in the position of Assistant Secretary should I be 
confirmed. If confirmed as Assistant Secretary, I am committed to doing 
everything I can to work both within the Administration, with this 
Committee, and with the Congress to help the Department succeed in 
carrying out its missions.
    In closing, I want to again thank President Bush and Secretary 
Bodman for the trust they have placed in me. I also want to thank the 
Committee for holding this hearing and considering my nomination. It 
would be an honor and a privilege for me to serve the American people 
in this position.
    Mr. Chairman, this concludes my prepared statement. I would be glad 
to answer the Committee's questions at this time.

    The Chairman. Thank you, sir.
    Senator Bingaman.
    Senator Bingaman. Thank you very much, Mr. Chairman. I join 
in welcoming the nominee and congratulating him on his 
nomination.
    I know that Mr. Kolevar has held senior positions in the 
Department during the last 6 years and has been the Director of 
the Office of Electricity Delivery and Energy Reliability for 
the past 2 years. So, I have no doubt that he's qualified to 
perform the functions that are intended here.
    I do still have concerns about the need to have an 
Assistant Secretary performing these functions. The Department, 
of course, has seven Assistant Secretary positions. One of 
these has traditionally been responsible for overseeing the 
Department's environment, health, and safety responsibilities, 
and those functions have now been moved to a new office that's 
headed by an office director not subject to Senate 
confirmation. I understand that that change was made in order 
to give the ``Assistant Secretary'' title to Mr. Kolevar, to 
the position that he is now being nominated for. I have 
concerns about the reorganization of the Department's 
environment and safety and health programs. And I do believe 
those are issues we should look into.
    So, I do have some questions. Should I proceed with those 
questions at this point?
    The Chairman. Senator, I apologize for sort of going in 
improper order. And, yes, you should proceed with your 
questions at this point.
    Senator Bingaman. Okay. I'll be glad to ask a few 
questions.
    Mr. Kolevar, let me just ask you: Why do the functions of 
the Office of Electricity Delivery and Energy Reliability need 
to be performed by an Assistant Secretary rather than by an 
Office Director, in your view? I assume that these are 
essentially the same functions that you have been performing as 
the Office Director, and, now that change is being made, 
perhaps you could explain the reasons for that.
    Mr. Kolevar. Thank you, Senator.
    Of course, the decision to elevate the office was not mine, 
and was made without input from me, or a recommendation to that 
effect. I do, however, believe that the duties carried out by 
this office, and the significance of electricity as a driving 
force for our economy, make an elevation of this office to an 
assistant-secretary level appropriate. We have seen a number of 
instances over the last several years where the interuption of 
electricity--the lack of reliable electricity--has been a 
national issue, certainly in the cases of the blackout of 2003 
and in the wake of the hurricanes last year. It's my opinion 
that the electricity title included in the 2005 Energy Policy 
Act recognized these concerns and spoke very well to the need 
for additional involvement by the Federal Government to help 
ensure electricity delivery as a fundamental component of our 
national economy.
    Senator Bingaman. Let me just follow up on that. As I 
understand the Energy Policy Act that we passed last year, it 
is--we did have in there various provisions assigning, to the 
Secretary of Energy, responsibility for coordinating Federal 
authorizations and environmental reviews for the development of 
new electric transmission facilities. And the Secretary then 
delegated those authorities to FERC, the Federal Energy 
Regulatory Commission. Would you expect the Secretary to 
withdraw that--those functions from FERC and have them assigned 
to you? If not, what would be your role in the position as 
Assistant Secretary for those subject matters that were 
delegated to FERC?
    Mr. Kolevar. Sir, I believe the delegation you are 
referring to is a new one that was passed to FERC wherein 
applications for transmission lines which were located within 
national interest electric transmission corridors would be 
coordinated by the FERC, and appropriate NEPA review would be 
conducted by the FERC as well. As we anticipate the provision 
of section 1221(a) working the Department has completed its 
study, has taken comments, and has announced recently that any 
draft designations that come from the Department would be 
published in draft form, with an additional comment period to 
allow additional stakeholder input.
    Should the Secretary ultimately decide to designate one or 
more corridors, then most of the action will then turn over to 
the FERC, should there be an applicant to cite a new project 
within that transmission corridor. The reasons for that, sir, 
were because the Commission has a long and well-established 
process of coordinating permits for long line infrastructure. 
Their duties under chapter 7 of the Natural Gas Act are the 
best example. And so, the FERC has announced that they would 
intend to implement the relevant delegations in much the same 
fashion as they do chapter 7 of that Act, and that would 
involve coordinating the appropriate NEPA review in the event 
an application be made for a transmission line in that 
corridor.
    Senator Bingaman. Let me ask, on another issue. I note your 
office is--will share jurisdiction over some programs that have 
previously been under the Energy Efficiency and Renewable 
Energy Office, and that some programs that have been under that 
office will be transferred to your office. At least that's what 
I've been informed. An example here is the Wind System 
Integration Program. I'd like to be sure that the important 
work that's been going on at this Energy Efficiency and 
Renewable Energy Office in support of wind development in 
connection with the--with this project is continued. Could you 
tell us about any plans you have to be sure that vital parts of 
that program are not lost in the transition to your office, and 
any comments you could give us, in general, about how you would 
plan to coordinate with that office to be sure that the overlap 
between your offices preserves the important goals of renewable 
energy projects?
    Mr. Kolevar. Yes, sir.
    I should note that the decision to transfer some portions 
of that program has not been made by the Congress. The 
provision that you speak of was included in the Senate- passed 
appropriations mark. And so, while we have seen that there was 
at least an intent, or a consideration, on the part of the 
Congress to move functions from the wind program into the 
electricity program, that has not yet happened.
    That said, Senator, I will tell you that the Assistant 
Secretary for Energy Efficiency and Renewable Energy and I have 
taken it upon ourselves to work very closely together and to 
construct a program which truly utilizes all of the benefits of 
the current wind technologies and seeks to integrate them into 
the grid.
    Without speaking to any specific levels of funding that 
might or might not move, it is my opinion that close 
cooperation between the programs is absolutely imperative. Wind 
energy is commercially viable now, and we need to be giving 
more attention on how to integrate it into a grid--in a 
responsible manner that does not upset the balance. And 
Assistant Secretary Karsner and I are committed to doing that. 
Our staffs have been working cooperatively to fashion a joint 
committee to really decide how best to make that happen. And I 
have to say, I am very pleased with the progress that has been 
made thus far. And the commitment of all the staff is to really 
work together to break ground on some new relationships and 
break out of the stovepipes that we occasionally see at the 
Department.
    Senator Bingaman. Mr. Chairman, I'll stop with that. Thank 
you very much.
    I'll have a few other questions that I'll submit for the 
record, if I could.
    The Chairman. All right.
    Senator Salazar.
    Senator Salazar. Thank you very much, Chairman Domenici and 
Ranking Member Bingaman.
    I very much have enjoyed working on this committee, and 
working with the spirit of bipartisanship that you have brought 
to it, Chairman Domenici and Senator Bingaman. And certainly 
the efforts of the passage of the 2005 Energy Policy Act could 
not have happened without the great leadership from both of 
you, and I very much appreciate both of you in that regard, and 
also as just wonderful friends from the Land of Enchantment.
    To you, Secretary Bodman, and to Assistant Secretary Sell, 
thank you for being here, and thank you for your continuing 
support of the National Renewable Energy Lab in Colorado.
    And, to Mr. Kolevar, I congratulate you on your nomination.
    I have a couple of questions for you. The first has to do 
with a provision that was in the 2005 Energy Policy Act, on the 
designation of the energy corridors around the country. In my 
State, there are a number--we have tried to work with the 
Department of Energy to get the corridor maps given to us so 
that we can understand what areas of the State will be 
impacted. And, as I have understood what those corridors look 
like, they are more than half a mile wide, and have enough a 
number--will affect a number of different areas in the State of 
Colorado. Can you provide me with an update on what the status 
is of the designation of those energy corridors at this point 
and will have more specific information as to the description 
of those corridors within my State, as well as within other 
States?
    Mr. Kolevar. Yes, sir.
    The corridors that I think you are referring to are those 
provisions under section 368 requiring the Department to work 
with other land management agencies to identify energy 
corridors through which not just transmission, but natural-gas 
pipelines, product pipelines, and the like, can run. I have 
been very pleased with the close cooperation that has taken 
place between the Department and the other agencies. In this 
respect, the Department shares a co-chair lead with the 
Department of the Interior. And we have been working very 
closely with all of the relevant agencies within that 
Department and the Forest Service and others to cooperatively 
identify corridors across the West. We are looking at it from a 
very high-level system view, if you will, so that we can do our 
very best to identify those corridors most necessary, but, at 
the same time, do so with intrusion upon the least amount of 
Federal lands as possible.
    The corridors, sir, as you mention, are around 3,500 feet 
wide, as currently envisioned. And, a draft map of these 
corridors was released in June of this year. We are working 
with our partners right now to identify additional steps that 
need to be made before we can release any final version.
    Senator Salazar. Can you tell us--or can you tell me and 
the committee when you expect that to happen?
    Mr. Kolevar. Yes, sir. I think that that will happen in the 
spring of 2007. We had hoped to be able to produce that faster, 
but this is a significant action by the land management 
agencies, and----
    Senator Salazar. Just because of our time constraints here, 
let me just ask you another question--once the--once those maps 
are published to show these energy corridors for the country, 
what is the process that you anticipate to move forward with, 
in terms of finalizing those energy corridors?
    Mr. Kolevar. An entire package for proposed final corridors 
will include a programmatic EIS, and additional public comment 
will be invited on those corridors.
    I should note, Senator, that all agencies have been working 
very hard to identify the corridors most necessary to 
facilitate continued growth in the West, at the same time being 
very sensitive to all of the lands out there. Ninety percent of 
the corridors we have identified this way are located using 
existing rights-of-way across Federal lands.
    Senator Salazar. It'll be very important to maintain 
communication, I'm sure, with all of the Senators, on those 
corridors within our respective States, and I look forward to 
working with you on that in connection with the Colorado 
corridors.
    Let me ask you a second question relative to the 
integration of renewable energy into the electric grid. The--
wherever I go in Colorado, whether it's in the eastern plains 
or up in the northern part of Colorado, where we now have 
significant wind energy being produced, one of the major 
concerns that I hear from people who are interested in the 
subject is the fact that they have no access to the grid. We 
can produce all of the--all of the electricity--a lot of 
electricity from wind, but our challenge, then, is access to 
the grid. Give us, in a 1-minute summation, 2- minute 
summation, what you think we ought to be doing to enhance that 
access to the grid for renewable energy from wind.
    Mr. Kolevar. I think there are two primary lines of 
pursuit, and these are those that would be done in the 
cooperative working group that, Senator Bingaman, I described 
to you just a little earlier. The first is that there are 
interconnection barriers that need to be overcome, and that is 
to make sure that when wind is introduced into a system, it is 
not doing it to the detriment of reliability of the system. And 
the variable nature of wind can make balancing some grids very 
difficult. And so, that is a technological challenge that we 
will continue to work on, and will do so through research and 
development, but within the Electricity Office and in the wind 
program.
    The second area, Senator, is that I believe that there 
needs to be significant outreach efforts--and this is really 
going to involve the States, who are the primary regulators of 
the electric grids--to make sure that we can work with 
utilities to appropriately incentivize their greater inclusion 
of wind assets into the grid. It is oftentimes the case that 
the potential risks of introducing that new variable in are 
such that utilities or regional organizations may be trepid and 
not want to pursue that. So, that is an area where we really 
need to sit down with the States, with the RTOs, ISOs, and the 
utilities themselves, and developers, and see what we can do to 
overcome and address some of those fears. And, to the extent 
that the States can introduce some new policies by regulation 
or statute to help overcome those barriers, the Department 
would like to do what we can to assist them.
    Senator Salazar. I look forward to working with you on that 
issue, and with Secretary Bodman, because I know it's a very 
major issue in my State.
    I have a number of other questions, Mr. Chairman, but I 
will just submit those for the record and for response along 
the timelines that you've set.
    Thank you very much.
    The Chairman. Thank you very much.
    Both of you have asked great questions this morning, 
because you've asked the questions that I was going to ask.
    [Laughter.]
    The Chairman. Obviously there's nothing left. But I will 
submit mine anyway and let them--let the young man answer them 
again. So, I'll submit mine, and you can rethink between what 
you gave you and what he's going to give me in writing, and see 
how that turns out. And we won't ``catch him,'' I don't think, 
since he'll have plenty of time to think. Looks like he is not 
very easily ``caught.'' Would that be fair? Whatever that 
means.
    [Laughter.]
    The Chairman. Anyway, we're glad to have you. Unless 
Senator Bingaman has anything further--we know we've got a few 
wires, one ahead of the others, that we ought to get 
straightened out here, Mr. Secretary, before too long, if we 
can, so as to implement his being moved along, rather than 
being a deterrent. And you are well aware of that. Working with 
a rather fairminded minority for the next couple of weeks, we 
want to get it done, work well with them. If not, we'll be into 
next year, and we'll see what happens.
    But, in any event, we're finished with you for the day, and 
glad to have your family up here. We are glad that they are 
interested in your moving ahead in an area like this and that 
they're willing to come up here today. And that little guy is 
going to do okay, it looks like to me.
    [Laughter.]
    Mr. Kolevar. Thank you, Mr. Chairman.
    The Chairman. Thank you.
    We're in recess.
    [Whereupon, at 10:32 a.m., the hearing was adjourned.]
                                APPENDIX

                   Responses to Additional Questions

                              ----------                              

     Responses of Kevin Kolevar to Questions From Senator Domenici
        national interest electric transmission corridors nietcs
    Section 1221 of EPAct directed the Department of Energy (DOE) to 
conduct a national study of electric transmission congestion and to 
issue a report designating a National Interest Electric Transmission 
Corridor--or NIETC--for ``any geographic area experiencing electric 
energy transmission capacity constraints or congestion that adversely 
affects consumers.'' Once an NIETC is identified, EPAct provided FERC 
with ``backstop'' siting authority, if certain conditions are met.
    The DOE report, released in August, found southern California and 
the area between New York City and northern Virginia to be the most 
severely congested regions in the country. The public comment period 
closed this fall and DOE is set to release draft NIETC designations by 
the end of this year. Those draft designations will also be open to 
public comment.
    Question 1. DOE's congestion study identified southern California 
and the Atlantic coastal area from metropolitan New York through 
northern Virginia as ``critical congestion areas.'' These areas will 
likely receive an NIETC designation correct? How does DOE plan to deal 
with the ``congestion areas of concern'' like New England; Seattle/
Portland; Phoenix/Tucson; and the San Francisco Bay area?
    Answer. The Department of Energy (DOE or the Department) is 
presently evaluating comments it has received on its congestion study 
and other relevant information to determine whether to designate one or 
more National Corridors in the classes of congestion areas that were 
identified in the congestion study. The Secretary has not yet made a 
determination as to whether or where National Corridors will be 
designated. In making those decisions, I believe the Department will 
consider all comments and feedback from potentially affected States and 
stakeholders in those regions.
    Question 2. I understand that draft designations may be out by the 
end of this year. When does DOE anticipate designating final corridors?
    Answer. At this time I cannot estimate precisely when any final 
designations of National Corridors may occur. I can say, however, that 
the Department is proceeding as expeditiously as possible. The 
Department expects that it will decide whether or not to designate any 
final National Corridors at an appropriate time after it issues any 
draft designations, allows for a comment period, and considers all 
comments submitted.
    Question 3. Given the long lead times necessary for transmission 
construction, is there an assumption that these designated corridors 
will be in place for a significant period of time?
    Answer. The Energy Policy Act of 2005 is silent as to whether 
National Corridor designations should be permanent, terminate at some 
time, or terminate upon the occurrence of some event or condition. The 
Department has not yet determined how it will deal with this issue. The 
point you raise is significant, however, and the Department did request 
public comment on this question.
    Question 4. There is already some concern in the state of Virginia 
that a potential corridor could encompass historic battlefields. Are 
state or federally-owned lands subject to eminent domain for NIETC 
corridors?
    Answer. Pursuant to Section 1221(a) [FPA Section 216(e)], property 
owned by the United States or a State is not subject to the exercise of 
the right of federal eminent domain, even if such lands are encompassed 
within a National Corridor.
    Question 5. Similarly, my colleagues from Maine have expressed 
concern about the requirement that DOE consult with the States. Will 
DOE consult with affected states prior to issuing the draft 
transmission corridor designations? On what basis did DOE find that the 
Maine-New Hampshire interface is a congested area of concern?
    Answer. DOE consulted extensively with many State officials, such 
as state regulatory commissioners and their staff and officials from 
State energy agencies, before completing and issuing the National 
Electric Transmission Congestion Study in August 2006. The Department 
repeatedly sought input from States and other parties, and many of them 
responded to these invitations by supplying useful comments, 
information, and analysis. Others affirmatively sought to meet or talk 
with the Department to make their views known. After issuing the study, 
DOE again invited public comment and has received much useful and 
relevant input.
    In addition, DOE has announced its intention to issue draft 
designations of National Corridors in order to engage in public comment 
and consultative discussions with affected States and other 
stakeholders prior to any final designations. Section 1221 does not 
require DOE to seek public comment on draft designations, but we 
believe that doing so will be beneficial to DOE and to stakeholders.
    The DOE historical document which references the congestion on the 
Maine-New Hampshire flows is the ISO-NE Regional System Plan 2005. The 
interface in question is the Northern New England Scobie Interface. The 
Department's conclusion was based on historical market data for that 
interface, which showed that the interface reached the limits of its 
safe load-carrying capacity during more than 1600 hours in the 2004-
2005 time period.
    DOE's independent modeling results were based on simulations using 
the GE MAPS model utilizing the CRA proprietary generation database and 
transmission configuration from the NERC MMWG load flow. Those models 
served to further verify the facts contained in the earlier noted 
analysis.
    I look forward to working with your office, the Maine delegation, 
and other interested Members to ensure that DOE addresses concerns such 
as those expressed by the State of Maine.
                 energy corridors across federal lands
    Question 6. EPAct directed DOE and the land management agencies to 
designate corridors for energy rights-of-way across federal land in the 
West for new infrastructure. I understand that this has been an 
enormously complex undertaking, given the number of jurisdictions and 
stakeholders involved.
    What kind of consultation process has DOE undertaken to identify 
these corridors and work through these complex issues? What remains to 
be done? Will DOE meet the August 2007 deadline?
    Answer. You are correct. The tasks required by EPAct Section 368 
are complex, but agencies continue to work together and make progress. 
The agencies began work shortly after the Energy Policy Act of 2005 was 
enacted in August 2005. At that time, an interagency team was 
established with the Department of Energy (DOE) as the lead agency. The 
Bureau of Land Management is a co-lead, and the Forest Service, the 
Department of Defense, the Fish and Wildlife Service and the States of 
California and Wyoming are cooperating agencies. The Coeur de'Arlene 
tribe is also a cooperating agency. In addition, the Department of 
Commerce is involved as a consulting agency. Pursuant to EPAct Section 
372(a), a Memorandum of Understanding (MOU) was signed by the four main 
agencies in February 2006 with respect to cooperative implementation of 
Section 368.
    Involvement from the States, tribes and various stakeholders 
throughout the energy right-of-way corridor designation on Federal 
lands is ongoing. The Federal agencies have conducted joint public 
scoping meetings concerning the designation of such corridors in each 
of the eleven contiguous Western States.
    A draft Programmatic Environmental Impact Statement (PEIS) for the 
proposed action is expected to be published in the spring of 2007. The 
agencies anticipate there will be a 90-day comment period, including 
hearings in each of the eleven western states. After the final PEIS is 
issued, the relevant land use plans are expected to be amended by a 
record of decision to be issued by approximately December 2007.
    Question 7. There has been much debate as to the areas these energy 
corridors may cross. There are numerous environmentally sensitive areas 
throughout the West. Will it be possible to designate such corridors 
while avoiding areas such as wilderness areas and wildlife refuges?
    Answer. The agencies are seeking to avoid wilderness areas, 
wildlife refuges, and other sensitive environmental areas. The agencies 
are going through a laborious process with webcasts, field meetings, 
and various face to face discussions regarding the best routes for 
energy right-of-way corridors. The objective is to facilitate 
additional infrastructure to support demand and supply resources, while 
protecting the environment. About 90 percent of the currently 
designated energy corridors on federal lands build upon existing rights 
of way.
                               blackouts
    Question 8. Last summer's record temperatures and electricity 
demands certainly taxed our nation's grid. Are we at risk today for a 
significant blackout like the one we experienced in August 2003?
    Answer. Last summer's record temperatures and electricity demands 
greatly stressed our Nation's grid, and significant weather events 
continue to have the potential to cause a significant blackout. 
However, things have improved since 2003, largely as a result of our 
having identified the causes of that blackout and the progress being 
made to implement the recommendations made by the U.S.-Canada Power 
System Outage Task Force (Task Force).
    The fact that some of the causes of the August 2003 blackout were 
seen in previous blackouts led to a strong emphasis in the Task Force's 
final report on the long-term need to track implementation of the 
report's 46 recommendations, monitor compliance with standards, and 
maintain vigilance.
    The first and most important recommendation of the Task Force was 
that the U.S. Congress should enact legislation to make compliance with 
reliability standards mandatory and legally enforceable, which the 
Congress did in the Energy Policy Act of 2005. That policy is being 
implemented by the Federal Energy Regulatory Commission through its 
approval and continuing oversight of the North American Electric 
Reliability Council to be the Nation's ``Electric Reliability 
Organization.'' Utilities, RTOs and ISOs have been working for over a 
year to prepare for these new standards, and this preparation is doing 
a great deal to improve reliable electric service.
    While much progress has been made since August 2003, there is still 
much work to be done. By its very nature, the electric grid is complex 
and is subject to mechanical and human failures. Thus, we cannot 
eliminate the possibility of future blackouts.
    Question 9. The North American Electric Reliability Council--the 
new ERO--recently released its long-term reliability assessment. NERC 
warned that we need to invest in power plants and transmission lines to 
accommodate an expected 19% increase in demand over the next decade. 
How do you respond to this report?
    Answer. We embrace this report. NERC's recent long-term reliability 
assessment is consistent with the President's statements, those of the 
Department, and that of Congress by its enactment of the Energy Policy 
Act of 2005, that our nation needs to modernize and expand our 
electricity infrastructure. The Department shares NERC's call for more 
generation and transmission, as well as NERC's call for more energy 
efficiency and demand response, all of which are essential parts of 
modernizing our Nation's electric grid.
                        coal deliveries via rail
    Question 10. As Assistant Secretary, one of your primary 
responsibilities will be to help ensure a reliable supply of 
electricity for the nation. Last May, this Committee conducted a 
hearing on rail deliveries of coal used to generate electricity. At the 
hearing, we learned that even though our country is the ``Saudi Arabia 
of coal,'' a number of electric utilities are importing coal from South 
America and Indonesia to make up for inadequate rail deliveries of 
domestic coal.
    If confirmed, will you focus on this important issue and keep the 
Committee informed as to whether federal policy in this area is 
adequate or whether legislative or administrative action is needed?
    Answer. I agree that the reliable delivery of coal is an important 
factor affecting the reliability of our nation's electricity supply. If 
confirmed as Assistant Secretary, I will continue to track this issue 
and keep the Congress informed, as well as inform you if it appears 
additional actions are needed.
                            pole attachments
    Pursuant to current federal law, cable and certain 
telecommunications companies attach their wires to electric utility 
poles at subsidized, mandated rates originally instituted to promote 
the deployment of nascent video and telecommunications services.
    Senator Bingaman and I recently sent a letter to the Federal 
Communications Commission (FCC) expressing our concern about the effect 
of current pole attachment subsidies, as well as two new proposals 
related to pole attachment rates and engineering standards, on the 
electric rates paid by electricity consumers.
    Question 11. Are you aware of the relationship between pole 
attachments and the safety, integrity, reliability and cost of electric 
distribution infrastructure? Would you agree that the FCC should 
refrain from taking action on any proposed changes to pole attachment 
regulations in order to avoid any further negative effects on 
electricity consumers, and also to allow time for Congress to consider 
these issues in a comprehensive manner?
    Answer. I am aware that pole attachments have the potential to 
affect the reliability of our Nation's electricity infrastructure. I 
cannot address what the FCC should or should not do under the laws it 
administers. I can say, however, that I believe it would be appropriate 
for DOE to make sure the FCC is aware of any potential concerns, such 
as common point of failure issues, in connection with pole attachments.
    Question 12. As Assistant Secretary, will you be willing to assist 
the committee in addressing these critical reliability issues relating 
to pole attachments?
    Answer. If confirmed, I would look forward to discussions with the 
Committee regarding how I might assist in addressing these issues.
                       doe lead agency authority
    Question 13. Pursuant to new Section 216(h) of the Federal Power 
Act, what steps has the Department taken to implement its lead-agency 
role for transmission-related permits, and how have those steps 
improved the permitting process to date? What more can the Department 
do, and when can we expect further action in this area?
    Answer. On August 8, 2006, the Department of Energy (DOE) and eight 
other Federal agencies signed a Memorandum of Understanding (MOU) on 
Early Coordination of Federal Authorization and Related Environmental 
Reviews Required in Order to Site Transmission Facilities on Federal 
Lands. Since that time, DOE has assembled a team to implement Section 
216(h), and is finalizing the Department's procedures, including the 
roles and responsibilities of Federal agencies and transmission project 
applicants. I am encouraged by the potential benefits of systematic 
coordination among Federal agencies and appropriate State agencies, 
Indian tribes, and multi-state entities to prepare the initial 
calendars with milestones and deadlines for the Federal authorizations 
and related reviews required for the siting of transmission facilities.
    To date, no Federal agency has notified DOE that it has received a 
transmission line permit application relating to an electric 
transmission line. Preparations are now in place to begin to 
aggressively work with other Federal agencies to fulfill the provisions 
of the MOU and Section 216(h).
                         transmission expansion
    Question 14. I understand that in some states, such as Indiana, 
Georgia, Minnesota, and Vermont, municipal electric systems and rural 
electric cooperatives have jointly funded transmission upgrades. Is 
this an effective model for getting new transmission funded and built?
    Answer. I believe that joint ownership is one of several effective 
models for getting new transmission facilities funded and built, as it 
promotes joint planning, brings new investment money to the table and 
broadens the base of support for construction of new transmission 
facilities.
                   emergency replacement transformers
    Question 15. One of the more vulnerable points in the electric 
system are the high-voltage transformers that step voltage down from 
transmission levels, typically above 100 kilovolts, to distribution 
voltages in the tens of kilovolts. In 2004, both the Congressional 
Research Service and the Congressional Budget Office concluded that 
high-voltage transformers are uniquely important facilities for 
electric reliability that are generally not produced in the United 
States. Recently, the investor rating service Fitch noted that 70 
percent of transformers are at least 25 years old, and that the 
availability of spare parts was generally a problem in the utility 
industry.
    Are you aware of the Electric Power Research Institute's design for 
an emergency replacement transformer that could be built in the United 
States, easily transported when and where needed, and used either until 
a permanent replacement was available, or for up to 30 years? If so, 
what are the Department's views on this design? Should the federal 
government be assisting in this effort?
    Answer. I am familiar with the Electric Power Research Institute's 
(EPRI) effort to develop a ``Recovery Transformer.'' This project was 
performed in partnership with the Department of Homeland Security. It 
is an example of a longer-term approach to make large transformers 
easier to replace by designing modular transformers that can be more 
easily transported.
    The Department of Energy's Office of Electricity Delivery and 
Energy Reliability is sponsoring complementary research that will 
improve the compactness of distribution substation transformers. This 
research is focused on increasing the flux density in the core steel 
and materials research in high temperature superconductivity (HTS). HTS 
will enable the transformers to be cooled without oil, making them more 
resistant to acts of sabotage.
                                  pmas
    Question 16. Section 1222 of EPAct authorized the Western Area 
Power Administration and the Southwestern Power Administration to 
accept non-federal funds to build transmission facilities in certain 
circumstances to resolve congestion situations. Is DOE aware of any 
plans by WAPA and SWPA to exercise this authority?
    Answer. I am not aware of any plans by WAPA and SWPA to exercise 
this authority. It is my understanding that, to date, WAPA has not 
received any financial offers to help build transmission facilities in 
congested areas.
                           epact section 1813
    Question 17. I know you are working on the EPAct Section 1813 study 
regarding rights of way over tribal lands, which I authored. Because of 
its importance, I want to make sure that you are looking at all 
perspectives--economic, legal, regulatory, social, and historical. The 
study should also be forward-looking. Further, I want to make sure that 
the final report is going to give us some solid recommendations on how 
to best address these issues.
    Answer. DOE's Office of Electricity Delivery and Energy Reliability 
is working with the Department of Interior (Departments) to complete 
the EPAct Section 1813 study regarding energy rights-of-way (ROW) over 
tribal lands. The Departments have also consulted with the Federal 
Energy Regulatory Commission and numerous tribal, industry, and public 
participants in the course of this study. A draft report was released 
for public comment in August 2006. In the past few months, the 
Departments have been reviewing comments and making revisions to the 
draft.
    I agree with you about the importance of the study, including the 
economic, legal, regulatory, social, and historical aspects of this 
important issue. I anticipate that the final report will consider each 
of these issues in relation to energy ROW negotiations on tribal lands. 
In addition, I anticipate that the report will provide data and 
analysis with respect to energy ROW negotiations.
    The draft report currently contains a variety of alternatives that 
could be implemented by parties to particular energy ROW negotiations 
or by Congress should any specific public interest concerns arise from 
the failure of parties to reach an acceptable agreement. The 
Departments are also considering whether to make specific policy 
recommendations in the final report.
    The Departments are considering publishing the current staff draft 
for additional public comment and I look forward to discussing this new 
draft with your staff to ensure that your concerns are appropriately 
addressed before the report is issued in final form.
      Responses of Kevin Kolevar to Questions From Senator Thomas
    Question 1. Under Section 216(h) of the Federal Power Act, as added 
by Section 1221(a) of the Energy Policy Act of 2005, the Department of 
Energy (DOE) is directed to act as the lead agency for coordinating 
required Federal agency authorizations and related environmental 
reviews with respect to the siting of electric transmission facilities. 
Under this authority, DOE has executed a Memorandum of Understanding 
with other Federal agencies on early coordination and cooperation. 
Under Section 216(h)(4)(B), the Secretary of Energy is to ensure that, 
once an application has been submitted, all permit decisions and 
related environmental reviews under all applicable Federal laws are to 
be completed within 1 year. How does the Department intend to assure 
that all permit decisions by Federal agencies are completed within 1 
year, and what steps will you take if a federal agency delays action on 
a completed application?
    The statute authorizes DOE to issue any regulations necessary to 
implement the lead agency authority within 18 months, or by February 
2007. Is the Department planning to issue any such regulations?
    Answer. As you indicated, on August 8, 2006, the Department of 
Energy (DOE) and eight other Federal agencies signed a Memorandum of 
Understanding (MOU) on Early Coordination of Federal Authorization and 
Related Environmental Reviews Required in Order to Site Transmission 
Facilities on Federal Lands. Since that time, DOE has assembled a team 
to implement Section 216(h), and is finalizing the Department's 
procedures, including the roles and responsibilities of Federal 
agencies and transmission project applicants. I am encouraged by the 
potential benefits of systematic coordination among Federal agencies 
and appropriate State agencies, Indian tribes, and multi-state entities 
to prepare the initial calendars with milestones and deadlines for the 
Federal authorizations and related reviews required for the siting of 
transmission facilities.
    To date, no Federal agency has notified the DOE that it has 
received a transmission line permit application. The preparations are 
now in place to begin to aggressively work with other Federal agencies 
to fulfill the provisions of the MOU and Section 216(h).
    Question 2. Section 1815(b) of the Energy Policy Act of 2005 
requires an interagency task force to study and report on competition 
within wholesale and retail markets for electricity in the U.S. The 
task force was required to report to Congress within 1 year of the date 
of enactment of the Energy Policy Act of 2005. A draft of the study was 
published for comment in June, but to date, the final study has not 
been submitted to Congress. When can we expect to see this study?
    Answer. A draft of the report to Congress is in interagency review. 
I hope that the Department will be able to send you the final report 
within a few weeks.
    Question 3. Under the Federal Power Act Section 216(a), as added by 
Section 1221(a) of the Energy Policy Act of 2005, DOE is charged with 
the designation of National Interest Electric Transmission Corridors 
(NIETC). I am aware that DOE has completed a congestion study that is a 
prerequisite to NIETC designations. Why is DOE requesting yet another 
public comment process on yet to be proposed NIETC designations?
    Answer. The Department has announced that, due to the significant 
public interest in the NIETC (National Corridor) issues, before 
designating any National Corridor, it will first issue any designations 
in draft form to facilitate focused review and comment by affected 
States, regional entities, and the general public. DOE noted, when it 
announced this process, that a comment period on draft designations is 
not required by Section 1221(a). I support this process because I 
believe further public input will inspire greater confidence in the 
process, and any final National Corridor designation will benefit from 
comments addressing the specifics in a draft designation.
    Question 3a. DOE has not provided a timetable for making the first 
proposed NIETC designations. Given how badly the nation needs new 
electric transmission capacity, when will the Department finalize the 
first set of NIETC designations?
    Answer. I do not have a firm timeline, but I can say that I believe 
the Department is proceeding as quickly as it can. The Department's 
August 8, 2006 Congestion Study highlighted numerous geographic areas 
where electric congestion or capacity constraints exist. Fortunately, 
DOE is not operating in a vacuum--many States and regional planning 
entities have been active in working with the private sector to address 
the need for new transmission. Accordingly, I believe that it is 
important that before DOE makes any final designations, we fully 
consider the comments and results of consultations with the States and 
others in order to ensure that the designations, if any, are well 
grounded. DOE is actively analyzing the comments that were submitted 
following publication of the Congestion Study.
    Question 3b. How does DOE intend to assure that the national 
interest is paramount in the designation of the corridors in the face 
of competing local or public interest group pressures?
    Answer. Congress has given DOE a significant new authority, and has 
stated that the Secretary may consider in any designation whether the 
National Corridor would be in the interest of national energy policy, 
among other factors. In order that DOE properly and appropriately 
exercise the authority given it in Section 1221(a), if confirmed as 
Assistant Secretary, I will ensure that there is a designation process 
that appropriately considers all relevant factors.
    Question 3c. Can entities proposing projects ask that The 
Department of Energy (DOE) look at specific paths for transmission 
lines before DOE completes its NIETC designations? If not, why?
    Answer. Project sponsors and other entities have been able to 
submit proposed transmission paths to DOE for its consideration as to 
whether a National Corridor should be designated. These submissions 
have been included in the public comments requested by the Congestion 
Study, and are currently being reviewed as part of the entire record.
    Question 3d. Your initial studies did not identify Wyoming as a 
NIETC but found that, in the future, markets in the southwest will need 
access to Wyoming coal resources. Transmission lines take a long time 
to plan and build. Do you believe that work should begin now by relying 
on the Rocky Mountain Area Transmission Study, and other studies, which 
made it clear new transmission lines are needed in the West?
    Answer. I agree that transmission projects have long lead times, 
and that it is vital to plan ahead for future electricity needs in the 
Southwest, as it is in other current and future high-demand areas. 
Wyoming is blessed with an extraordinary coal resource that can make an 
enormous contribution to the future economic growth in large 
electricity demand centers in the Southwest. Accordingly, I encourage 
prospective transmission developers to actively pursue their proposals 
with appropriate State and Federal agencies with siting authority.
    Question 4. In terms of an appropriate role for DOE in facilitating 
major electric transmission construction that affects more than one 
state and multiple electric utility service territories, should DOE 
take the lead in bringing stakeholders together to achieve sufficient 
consensus in order to assure that needed transmission infrastructure 
is, in fact, completed?
    Answer. I agree on the value of consensus among stakeholders on the 
need for additional transmission infrastructure. If confirmed as 
Assistant Secretary, I intend to continue DOE's role in supporting and 
facilitating efforts by States to work together on a regional basis to 
plan for meeting electricity demand. For example, the assistance DOE 
offers has included access to experts at DOE national labs and other 
national experts who can assist with studies and analyses. DOE also 
continues to assist the Western Governors Association's Committee on 
Regional Electric Planning Coordination with various studies and 
related technical assistance to help them improve Western regional grid 
planning and coordination. And, several years ago, the Department gave 
the Rocky Mountain Area Transmission Study access to national lab 
experts on advanced transmission technologies.
    I would hope to further advance this work as DOE implements its new 
authorities under EPAct. These new authorities include calling on DOE 
to cooperate with the Federal land management agencies to designate 
specific energy corridors crossing Federal land (Section 386), to 
coordinate Federal permits required by transmission facilities (FPA 
Section 216(h)), and to conduct periodic congestion studies to focus 
national attention on the significant challenges the Nation faces in 
keeping up with growing electricity demand.
    Question 4a. If so, what tools does DOE have to accomplish that 
objective?
    Answer. DOE can provide access to experts at DOE National Labs and 
other national experts who can assist with studies and analyses, expert 
facilitation, and related areas of expertise existent in other 
Departmental programs (e.g., market data in EIA and coal generation 
information in the Fossil Energy Office).
    Question 5. Given that much of the western United States is federal 
land, what role will DOE play in the selection, permitting and review 
of major transmission projects that affect federal lands? How will DOE 
ensure coordination with the Department of the Interior, the Department 
of Agriculture and other relevant federal agencies?
    Answer. The agencies affected by Section 368 began work shortly 
after the EPAct was enacted in August 2005. At that time, an 
interagency team was established with DOE as the lead agency. The 
Bureau of Land Management is the co-lead agency for this project. The 
Forest Service, the Department of Defense, the Fish and Wildlife 
Service and the States of California and Wyoming are cooperating 
agencies. A Memorandum of Understanding (MOU) was signed by the four 
main agencies in February 2006 with respect to cooperative 
implementation of Section 368. The Coeur de' Arlene tribe is also a 
cooperating agency. The Department of Commerce is involved as a 
consulting agency. DOE, along with the other agencies involved in 
energy corridors in the West, are not selecting specific projects.
    As mentioned above, DOE also will play a role in facilitating 
transmission projects both on and off of Federal lands. Pursuant to the 
new FPA Section 216(h), DOE will coordinate Federal permits required 
for the siting of transmission facilities, as outlined in the 
Memorandum of Understanding.
    Question 6. How will DOE interact with Indian tribes in the 
decisions on siting and operation of transmission facilities that may 
impact Indian country?
    Answer. DOE has been working on many levels with Indian tribes 
regarding decisions on siting and operation of transmission facilities. 
Pursuant to Section 368 of EPAct, DOE is working with an interagency 
team and conducting outreach to the tribes through regional meetings, 
conference calls, face to face meetings, and government-to-government 
consultations. The interagency team has developed a tribal protocol so 
that all field and headquarter staff would be well prepared when 
working with the tribes.
    DOE and DOI also have been holding discussions and receiving 
comments from Indian tribes, industry and the general public in 
developing the report on Indian Land Rights-of-Way, required by Section 
1813 of EPAct. I expect a new draft will be published this year for 
public comment. Working in conjunction with the Department of the 
Interior, DOE will examine comments from the Indian tribes and other 
members of the public on the specifics of this draft once it has been 
published.
    Question 7. How will DOE coordinate with FERC given FERC's 
``backstop'' permitting and eminent domain authorities under the Energy 
Policy Act of 2005?
    Answer. DOE has been coordinating with FERC with respect to 
implementation of Section 1221. If confirmed as Assistant Secretary, I 
intend to strengthen that coordination, particularly as it relates to 
the DOE's FPA Section 216(h) requirements to coordinate Federal permits 
for transmission facilities, both personally and through recently hired 
staff who have experience at FERC.
    Question 8. Do you believe that the construction of new 
transmission capacity needs further regulatory or financial incentives 
to move forward in a timely manner?
    Answer. The Energy Policy Act of 2005 included several provisions 
designed to ease regulatory obstacles and provide additional financial 
incentives for transmission development, including changes to the 
Internal Revenue Code and new authority to FERC to grant incentive-
based rates to attract new investment. Thus far, I understand that 
there have been some encouraging responses from the electricity 
industry, but I believe that it is too soon to know whether or what 
additional Federal actions might be required to stimulate construction 
of additional transmission capacity.
    Question 9. Currently, IRS ``private use'' restrictions limit the 
use of certain tax-advantaged instruments to government owned 
utilities. There are a number of State infrastructure authorities that 
are developing public-private partnerships to build transmission. As is 
provided for in Sec. 3011 of Senate bill S. 2755, do you believe it 
would be helpful if these entities had the authority to issue tax 
exempt bonds in order to lower the cost of capital for large scale 
transmission projects?
    Answer. I believe the creation by some States of infrastructure 
authorities is a good way to help ensure that needed transmission is 
built. I am aware of the language in Senate bill S. 2755 that would 
expand the IRS ``private use'' restrictions to allow State 
infrastructure authorities to issue tax exempt bonds. However, I defer 
to the Department of the Treasury for a position on Section 3011 of 
Senate bill S. 2755.
    Question 9a. To what extent is the Department of Energy working 
with state infrastructure authorities?
    Answer. DOE has been in frequent dialogue, attended meetings with, 
and otherwise consulted with State infrastructure authorities. For 
example, DOE has worked with the Wyoming Infrastructure Authority as 
part of its work on the proposed Frontier Line. In addition, DOE has 
worked with Western entities on regional planning and coordination 
through groups such as the Western Governors Association's Committee on 
Regional Electric Power Coordination. Also, the Department's Western 
Area Power Administration is part of a three-way memorandum of 
understanding with TransElect and the Wyoming Infrastructure Authority 
to evaluate various ways of addressing the ``TOT-3'' transmission 
congestion that exists between Wyoming and eastern Colorado.
    DOE was recently briefed on the newly-created Kansas Infrastructure 
Authority. If confirmed as Assistant Secretary, I would look forward to 
meeting with and discussing infrastructure issues, including public-
private partnerships, with it, and as well as other State 
infrastructure authorities.
    Question 10. What role do superconductor wires have in increasing 
the reliability of electric delivery in the United States? Do you 
believe that western states, over which electricity must travel 
comparatively longer distances than other areas of the country, are an 
important place to demonstrate and encourage the advancement of 
superconductor technologies?
    Answer. Superconducting cables have an important role in increasing 
the reliability of the electric delivery system. Superconducting cables 
are underground cables that increase the capacity in constrained areas 
of the transmission and distribution system. These cables have been 
tested in small lengths at both transmission and distribution voltages. 
I believe the Western states can take advantage of superconducting 
systems in congested metropolitan areas, but the cost of putting these 
cables underground presents a major obstacle that may prevent 
superconducting cables from being the technology of choice over 
distances in excess of 100 miles.
    Question 11. In what ways does the Department of Energy coordinate 
with the Department of Transportation on ensuring that the reliability 
of our nation's electric supply is not jeopardized by insufficient rail 
delivery of coal? Do you believe there is room for improvement in this 
regard and, if so, what do you propose doing about the federal role in 
remedying the so-called captive shipper' issue?
    Answer. I agree that the reliable delivery of coal is an important 
factor affecting the reliability of our nation's electricity supply. 
DOE is currently reviewing this issue, and I look forward to working 
with the Committee on this issue.
    DOE has been in discussions with the Department of Transportation 
regarding the importance of supply assurance to electricity 
reliability. However, DOE does not have the authority to address 
railroad rates or pricing policies.
    Question 12. As the Department of Energy moves forward with the 
creation of right-of-way corridors on federal land, pursuant to Section 
368 of the 2005 Energy Policy Act, how does the agency intend to 
protect private property rights in the corridors and the continuance of 
uses such as grazing and mining?
    Answer. It is my understanding that Section 368 only applies to 
Federal lands, and that it does not address the designation of energy 
corridors on private, tribal or State lands. Where possible, I believe 
the Federal agencies are incorporating interagency operating principles 
(similar to best management practices) which outline various uses, 
including grazing and mining, and stipulations for the energy 
corridors.
     Responses of Kevin Kolevar to Questions From Senator Alexander
    Question 1. The Office of Electricity Delivery and Energy 
Reliability was recently formed as a merger of the Office of 
Electricity Transmission and Distribution and the Office of Energy 
Assurance at DOE, subsuming newly formed programs and initiatives such 
as GridWise, GridWorks, and Transmission Reliability. What is the 
rationale for reorganization now and why will this reorganization serve 
the goal of the reliable delivery of electricity to our nation.
    Answer. I believe this reorganization has made the Office of 
Electricity Delivery and Energy Reliability (OE) more effective. OE was 
formed by Congressional direction to build upon the synergies in the 
Office of Energy Assurance at DOE and newly formed initiatives such as 
GridWise, GridWorks, and Transmission Reliability.
    Question 2. What are the most promising and significant 
technologies under development for ensuring the reliable delivery of 
electricity? Do you anticipate a role for innovative materials, such as 
superconducting wires, to improve the reliability of the electricity 
grid? Given the impressive results of computer modeling and 
visualization applied to improve our understanding of other complex 
systems, do you foresee significant application of computer modeling 
and visualization to improve the stability of the electricity grid and 
other critical energy infrastructure? What is the Department of Energy 
doing to develop, validate, and implement these innovations?
    Answer. I believe the most promising and significant technologies 
under development include superconducting materials, storage, power 
electronics, load management technologies and visualization/controls. 
Yes, I do anticipate a role for innovative materials such as 
superconducting wires to improve the reliability of the electric grid. 
DOE, partnering with industry, is validating innovations through 
laboratory scale and commercial scale demonstrations including the 
superconducting cable demonstrations in Columbus OH, and Albany, NY. I 
foresee the application of computer modeling and visualization to 
improve the stability of the electric grid and other critical energy 
infrastructure. The Office of Electricity Delivery and Energy 
Reliability (OE) is currently working with the Office of Science on a 
joint activity that will look at mathematical supercomputing to 
increase our understanding of grid dynamics and stability. 
Additionally, OE is developing a departmental visualization tool for 
increased situational awareness during emergencies.
      Responses of Kevin Kolevar to Questions From Senator Bunning
    Question 1. A number of Kentucky rural electric cooperatives, 
municipal electric companies and investor owned utilities have been 
having serious problems with the Tennessee Valley Authority for several 
years. Specifically, TVA has been unwilling to interconnect with these 
Kentucky companies and transmit power from suppliers other than TVA. 
This refusal to cooperate costs these Kentucky communities jobs and 
millions of dollars a year in extra power costs. TVA's unwillingness to 
provide interconnection and transmission service may have a significant 
adverse impact on Kentucky's ability to provide reliable electric power 
to its communities. What do you foresee your office doing to ensure 
electricity reliability in situations like this one and what 
interaction will you have with the TVA?
    Answer. If confirmed as Assistant Secretary of Energy, I look 
forward to working with you to address your concerns. Although DOE does 
not have jurisdiction over the Tennessee Valley Authority (TVA), EPAct 
does require the Department to identify areas of electric transmission 
congestion (Section 1221(a)). In its August 8, 2006 Congestion Study, 
DOE's identification of historic electric transmission constraints in 
the SERC Reliability Corporation region indicated that among the most 
limited flow directions in the TVA area were from Tennessee to Kentucky 
(mostly flows from Cumberland into the LGE system in Kentucky). 
However, in that same study, DOE's independent simulations for the 
Eastern Interconnection did not identify this flow area as among the 
most congested paths in the Eastern Interconnection. Accordingly, DOE 
did not designate any areas in Kentucky or the SERC Reliability 
Corporation Region as Critical Congestion Areas, Congestion Areas of 
Concern, or Conditional Constraint Areas. Nevertheless, DOE will 
continue to review all the identified constraints and congestion areas 
as it develops its planned progress report on congestion, which is 
expected to be released in late in 2007.
    Additionally, I am cognizant of the potential impact of limited 
sources of generation for reliability and other adverse affects on 
consumers. I will, if confirmed, continue to focus on what DOE can do 
on these issues.
    Question 2. Part of the responsibility of your Office is to 
modernize and enhance the security and reliability of the electric 
grid. The Energy Policy Act of 2005 gave the Department of Energy the 
authority to establish National Interest Electric Transmission 
Corridors. As you know, siting electric transmission lines has 
traditionally been a state matter. How do you see your office working 
in consultation and cooperation with the states on the issue of siting 
high voltage electric transmission lines?
    Answer. I recognize that the EPAct provisions are new, and require 
care as they are implemented. I look forward to working with your 
office to ensure that DOE addresses these concerns as it works to 
exercise its statutory authority.
    DOE consulted extensively with many State officials, such as state 
regulatory commissioners and their staff and officials from State 
energy agencies, before completing and issuing the National Electric 
Transmission Congestion Study in August 2006. The Department repeatedly 
sought input from States and other parties, and many of them responded 
to these invitations by supplying useful comments, information, and 
analysis. Others affirmatively sought to meet or talk with the 
Department to make their views known. After issuing the study, DOE 
again invited public comment and has received much useful and relevant 
input. In addition, DOE has announced its intention to issue draft 
designations of National Corridors in order to engage in public comment 
and consultative discussions with affected States and other 
stakeholders prior to any final designations. Section 1221 does not 
require DOE to seek public comment on draft designations, but we 
believe that doing so will be beneficial to DOE and to stakeholders.
    Question 3. I understand that a number of new technologies that 
will allow for the efficient transmission of large amounts of 
electricity over long distances with little line loss are in the 
developmental or early deployment states. What is the status of these 
new technologies and what is your office and the DOE doing to 
facilitate their deployment?
    Answer. Superconducting cables can play an important role in 
increasing the reliability of the electric delivery system through the 
efficient transmission of large amounts of electricity with little line 
losses. Superconducting cables are underground cables that can bring an 
increased capacity to constrained areas of the transmission and 
distribution system. These cables have been tested in small lengths at 
both transmission and distribution voltages in Albany, NY and Columbus, 
OH. DOE is currently requesting proposals to demonstrate longer lengths 
at transmission level voltages of superconducting cables.
     Responses of Kevin Kolevar to Questions From Senator Bingaman
              reliability of oil and gas pipeline systems
    Question 1. In September, this Committee held hearings on the 
failure of a critical oil pipeline in the Prudhoe Bay area of Alaska. 
Many of us were surprised that such an important piece of our oil 
supply infrastructure had not been adequately maintained and was not 
subject to federal safety regulation. DOT pipeline safety regulators 
apparently do not have a mandate to consider the importance of 
particular pipelines to supply reliability.
    Can you tell us what your approach to energy infrastructure 
reliability will be? How will your office interact with the Department 
of Transportation, the Federal Energy Regulatory Commission, and the 
Department of Homeland Security to assure that we have a reliable and 
resilient pipeline infrastructure?
    Answer. Homeland Security Presidential Directive-7 has designated 
DOE as the lead energy agency to work with sector security partners to 
ensure a robust, resilient energy infrastructure. If confirmed as 
Assistant Secretary of Energy, I would seek to ensure that DOE, through 
the DHS National Infrastructure Protection Plan (NIPP) and the Energy 
Sector Specific Plan, continues to collaborate with energy sector 
security partners to help identify key assets and systems and to 
encourage collaboration in restoration and recovery activities.
    As the Co-Chair of the NIPP Government Energy Coordinating Council, 
DOE is working closely with federal, State and local governmental 
representatives, including most particularly with DOT, the Federal 
Energy Regulatory Commission and DHS Transportation Security 
Administration, in focusing on pipelines. Identifying vulnerabilities 
and working with the energy asset owners and operators is a key focus 
of our efforts. I understand that the DHS-led Transportation Sector 
Specific Plan will have a Pipelines Modal Implementation Plan which has 
been developed in close cooperation with DOE and the Oil and Natural 
Gas Sector Coordinating Council. DOE is also working very closely with 
FERC and DOT to ensure timely availability of information on pipeline 
system disruptions.
                      national interest corridors
    Question 2. The Department of the Interior, along with the 
Department of Agriculture and the Department of Energy, is conducting a 
programmatic environmental impact statement on the determination of 
corridors of national interest for transmission lines on public lands 
in the West. It seems, from DOI's statements in that proceeding, that 
their belief is that we, in the passage of EPAct 2005, overturned prior 
law to make it unnecessary for Congress to give specific approval for 
transmission lines on Park Service lands. My view is that we did not do 
so. We left prior law in place to continue to require specific 
legislative approval for transmission lines on Park Service lands. Do 
you have a view on this question?
    Answer. I recognize that the Energy Policy Act of 2005 provisions 
are new, and require care as they are implemented. I look forward to 
working with you and the Committee to ensure that DOE addresses these 
concerns as it works to exercise its statutory authority.
    In implementing Section 368 of the EPAct, ``Energy Rights-of-Way on 
Federal Lands,'' I believe the interagency project team (consisting of 
the Departments of the Interior, Agriculture, Defense and Energy--
Commerce has a consultant role) has worked to understand the importance 
of avoiding environmentally sensitive areas wherever practicable. 
However, I cannot speak for the Department of the Interior with regard 
to the statement you have cited.
                         conservation easements
    Question 3. Again, on the question of determination of transmission 
corridors of national interest, It would seem to me that the process 
that you have laid out, coupled with FERC's final siting proceedings, 
may leave some questions of importance unexamined. The effect of a 
corridor or a line on state granted conservancy easements, for example, 
may not have a proper place for consideration without a programmatic 
environmental impact statement, which you do not intend to conduct for 
corridor determinations on private lands in the east. Also, the 
comparative viability of competing or alternative routes may not come 
to the fore in either your process of determining corridors or in 
FERC's siting process. Do you believe that issues like these can be 
adequately addressed in the process that is going forward, and if so 
how.
    Answer. I believe the process DOE has announced regarding how it 
will consider whether to designate a National Corridor will allow for 
the important issues that you raise to be appropriately addressed.
    As you are aware, in its Congestion Study, DOE invited public 
comment on the study and on the issues relevant to designation of 
National Corridors. In my current role as Director of the Office of 
Electricity Delivery and Energy Reliability, I am participating in the 
evaluation of these comments, and that work is ongoing.
    DOE has decided that, prior to issuing a report that designates any 
National Corridor, DOE will first issue a designation that it is 
considering in draft form, so as to allow additional opportunities for 
review and comment by affected States, regional entities, and the 
general public. I support this process because I believe public input 
is crucial. As part of its analysis, I believe that DOE will seriously 
consider comments relating to potential routes for transmission relief 
as it considers whether to designate geographic areas experiencing 
transmission capacity constraints or congestion that adversely affects 
consumers. However, I believe the designation of a National Corridor is 
not a siting process that endorses any particular transmission proposal 
or route.
    Regarding DOE's obligations under the National Environmental Policy 
Act of 1969, as the director of OE, and if confirmed as Assistant 
Secretary, I will work to ensure DOE satisfies any NEPA obligations.
                          public participation
    Question 4. I also have concerns that the process for development 
of the corridors rulemaking may not have been as open as it might be. 
My understanding is that there has been little opportunity for input 
from states, environmental groups, property owners and consumers. I 
also understand that you have now determined that any communication 
with such entities after the closure of the comment period for the 
rulemaking on October 10, would be ex parte communication and so 
proscribed. My understanding is that such communication is not 
considered ex parte communication in the rulemaking context. What has 
been the process for public input on development of your rule?
    Answer. DOE consulted extensively with many State officials, such 
as state regulatory commissioners and their staff and officials from 
State energy agencies, before completing and issuing the National 
Electric Transmission Congestion Study in August 2006. The Department 
repeatedly sought input from States and other parties, and many of them 
responded to these invitations by supplying useful comments, 
information, and analysis. Others affirmatively sought to meet or talk 
with the Department to make their views known. After issuing the study, 
DOE again invited public comment and has received much useful and 
relevant input. In addition, DOE has announced its intention to issue 
draft designations of National Corridors in order to engage in public 
comment and consultative discussions with affected States and other 
stakeholders prior to any final designations. Section 1221 does not 
require DOE to seek public comment on draft designations, but we 
believe that doing so will be beneficial to DOE and to stakeholders.
       Responses of Kevin Kolevar to Questions From Senator Wyden
impact of new doe preemption authority on siting electric transmission 
                            in the northwest
    Question 1. Our region is served by the Bonneville Power 
Administration--which is also part of the Energy Department. BPA has 
very specific statutory responsibilities and roles, including providing 
much of the region's electric transmission. By federal law, we also 
have established a regional power planning council, now called the 
Northwest Power and Conservation Council. How do you intend to 
coordinate your Energy Policy Act process with the existing planning 
process in the Northwest? And what assurance can you give me that we 
won't find our own planning and siting processes preempted by you and 
the Energy Policy Act process?
    Answer. The Energy Policy Act of 2005 directed the Department of 
Energy (DOE) to study transmission congestion and authorized DOE to 
designate National Interest Electric Transmission Corridors where 
appropriate. As a result, DOE needs extensive transmission planning 
information. I have great respect for the regional transmission 
planning entities and processes that exist in various parts of the 
Nation, and if confirmed, would seek to coordinate DOE's efforts with 
the work those organizations, including BPA, have in process.
    relationship of mr. kolevar's office to bpa and other doe power 
                       marketing administrations
    Question 2a. As you know, DOE runs four major regional electric 
systems--the Power Marketing Administrations (PMA's)--Bonneville, 
Southeastern, Southwestern, and the Western Area Power Administrations 
including significant amounts of electric transmission. These PMA's 
don't report to you, but your office is supposed to be the Department's 
expert on what it takes to make sure the electricity system works. I 
would like to know what role you are going to play in how the 
Department oversees the PMA's in general.
    Answer. Decisions in these matters are vested in the Secretary. The 
Office of Electricity Delivery and Energy Reliability (OE) supports the 
Secretary's responsibilities, and in so doing has developed and 
maintains a strong working relationship with all four PMAs.
    Question 2b. Last year, the Administration proposed a budget that 
would have forced BPA to take its ``excess'' power revenues--``excess'' 
as defined by OMB--and pay them to the Treasury. As your own 
transmission report points out, we already have transmission 
constraints in the Northwest. We also need to build additional 
transmission to support the growth of new wind and other energy 
sources. Plus, BPA has a hydro-based system, and it's often the 
weather, not BPA, which determines what level of revenues BPA actually 
has to operate the system from year to year. In other words, the idea 
that BPA has excess revenues is incorrect. What are you going to do to 
ensure that the Administration is not going to shortchange BPA in its 
efforts to operate its system and meet its transmission needs?
    Answer. I recognize the importance of improving transmission in the 
Pacific Northwest. If confirmed, I will work with BPA in its efforts to 
operate a reliable transmission system. I will seek to work with BPA on 
a variety of solutions to address these concerns, and ensuring the 
appropriate funding is secured to operate the grid is essential.
    Question 3. Failure of Mr. Kolevar's office to improve transformer 
standards.
    Your office is supposed to be source of expertise on electricity 
transmission at DOE. Yet, earlier this year, the Department's Office of 
Energy Efficiency and Renewable Energy finally issued a proposed 
standard for electric distribution transformers. There are some 40 
million of these transformers in the U.S. And the result was a standard 
that even the electric utilities that need to buy these transformers 
say isn't good enough. Eight of them wrote to Secretary Bodman in 
September complaining that the standard DOE proposed would cost 
American utility companies and their customers an additional $11.1 
billion over the lifetime of these transformers, waste 459 billion 
kilowatt hours of electricity, and increase peak load by 6,600 
megawatts over a more efficient standard that DOE considered and 
rejected. I understand that you and your office didn't have any role in 
putting this proposal together, but my question to you, is why not?
    Answer. The Office of Energy Efficiency and Renewable Energy, and 
not OE, is responsible for developing energy efficiency standards for 
consumer appliances, and industrial equipment, including standards for 
distribution transformers. As a result, I as Director of the Office of 
Electricity Delivery and Energy Reliability did not play a role in 
developing that proposed rule. However, I understand your concerns and 
have discussed this matter with Assistant Secretary Karsner of the 
Office of Energy Efficiency and Renewable Energy. I am confident that 
OE will be involved in any future activities relevant to transformers 
and will have the opportunity to contribute to future work in this 
area.
    Question 4. Role of Mr. Kolevar's office in the integration of 
renewable resources.
    What role are you going to Department policies and programs that 
are primarily the responsibility of other offices within the 
Department, such as the transformer example cited above, that impact 
the ability of our country to keep electricity reliable, viable, and 
affordable such as the integration of wind and other renewables into 
the electric grid?
    Answer. In my view, a critical mission of the Office of Electricity 
Delivery and Energy Reliability is to enhance the security and 
reliability of the nation's energy infrastructure. Potential impacts to 
the reliability, viability and affordability are first and foremost 
concerns in all of the work this office does on advanced technologies. 
OE has developed a partnership with the Office of Energy Efficiency and 
Renewable Energy to assist that program in assuring that a variable 
generation source such as wind energy can be reliably integrated onto 
the US electricity grid. The partnership has examined state of the art 
integration methods for wind energy, and is developing a plan for 
disseminating the use of such methods throughout the industry. OE is 
using wind energy as the pilot for integration of variable technologies 
onto the electricity grid. I expect this effort will result in lessons 
learned from wind integration that can be applied to solar energy, 
hydroelectricity, biomass and other generation sources.
    Question 5. Role of Mr. Kolevar's office in addressing ``seams'' 
issues
    Answer. In September, FERC conditionally approved a proposal by the 
California Independent System Operator (CAISO) to implement a complex 
program of market mechanisms, called the Market Redesign and Technology 
Upgrade (MRTU). Several of the neighboring utilities filed comments 
with FERC, saying that there are numerous technical ``seams'' issues 
that must be addressed before MRTU is adopted. Several Northwest 
Senators, including me, also sent letters to FERC expressing concerns 
that seams have not been addressed and urging FERC to ensure that my 
region will not be harmed as a result of these changes. As you know, 
``seams'' issues occur when one utility, like the CAISO, has different 
operating protocols than its contiguous neighbor utilities. To address 
these issues, FERC plans to schedule one or more technical conferences 
between the CAISO and other regional utilities. What role will your 
office play in addressing seams issues within the Western electric 
grid?
    Answer. I agree that this issue needs to be comprehensively 
evaluated and resolutions identified. OE has a variety of analytical 
tools and talents that we are prepared to offer in support of the 
efforts by FERC, the ISOs and the States to address ``seams'' issues.
     Responses of Kevin Kolevar to Questions From Senator Cantwell
    Question 1. You currently serve as the Director of the Office of 
Electricity Delivery and Energy Reliability for the Department of 
Energy. Now you are before the Committee to serve as an Assistant 
Secretary of Energy for Electricity Delivery and Energy Reliability.
    If confirmed as Assistant Secretary, will you have greater 
influence over the administration policies related to electricity 
delivery and reliability?
    Answer. I believe the elevation of this office to an Assistant 
Secretary level will increase its effectiveness both inside and outside 
the Federal government.
    Question 2. As you know, the Bonneville Power Administration has 
the ability under federal statute to borrow from the federal treasury 
to build high-voltage transmission lines. Using this authority, the 
Bonneville Power Administration has built hundreds of miles of lines in 
the Northwest. These high-voltage lines have allowed the region to 
continue economic growth and added to the reliability of the nation's 
transmission system. The amount of borrowing authority is finite and 
BPA has sought to partner with non-federal interests to increase the 
availability of capital for needed transmission investments.
    Do you agree that we need to encourage creative and cooperative 
financing methods to get high-voltage transmission built?
    Answer. Yes, I do, to the extent that such creative and cooperative 
financing methods are consistent with sound financial and operational 
management, and comply with Federal laws and policies.
    Question 2a. Given the superior record of transmission investment 
in the service area of the Bonneville Power Administration, don't you 
agree that proposals from the Office of Management and Budget to limit 
the use of third party financing limits a proven 'creative and 
cooperative' option for the region's future transmission investments?
    Answer. In past budgets, I know that the Administration proposed 
legislation that it believed would promote the financial transparency 
of the Bonneville Power Administration and Tennessee Valley Authority. 
I certainly agree that all four of the Department's PMAs have excellent 
operational records, including in the area of transmission reliability, 
and if confirmed, would look forward to working with you and the PMAs 
to see that excellent record continue.
    Question 3. The Pacific Northwest National Laboratory in Richland, 
WA has created the Electricity Infrastructure Operation Center (EIOC) 
to provide a unique platform for grid research and development that 
will collect capabilities to provide the context for technology R&D and 
quantify the impacts of new technology. I invite you to visit the EIOC 
in the near future.
    Are you familiar with the EIOC? Do you agree there is a federal 
role to invest in high-risk, high-value R&D that will benefit industry 
as well as consumers? What role do you see for national laboratories 
like PNNL and for universities?
    Answer. Yes, I have been briefed on the Electricity Infrastructure 
Operations Center. I agree that there is a federal role to invest in 
high-risk, high value R&D such as superconductivity, high voltage power 
electronics, storage and advanced visualization tools that will benefit 
industry as well as consumers. The National Laboratories and 
universities have an important role in, among other things, the 
researching the next generation visualization tools and the 
mathematical modeling of the grid system for increased reliability. 
They also provide the opportunity to support the next generation power 
engineers required by the electric industry.
    Question 4. Last Spring, we were very excited about the start of 
the Northwest Demonstration project which is designed to demonstrate 
balancing load with demand in real-time on the Olympic Peninsula. This 
demonstration should be complete by next spring and we look forward to 
the final results and evaluation with respect to energy savings. I 
understand the demand side programs such as the NW demo have now been 
folded into the OE portfolio called Visualization and Controls. Where 
do you see this portfolio going and will you continue to invest in 
demand side R&D and technology demonstration programs?
    Answer. I am excited about the Olympic Peninsula activity that 
enables customer choice based on real-time pricing information and 
grid-friendly appliances. If confirmed, I would seek to focus DOE's 
future efforts on long-term, high-risk research on visualization and 
control tools such as communication architecture standards and 
vulnerabilities of new control systems related to the utility sector. I 
also would seek to continue DOE's investments to investigate scenarios 
under Distributed Systems Integration to reduce peak loads by 20 
percent on a constrained feeder system.
      Responses of Kevin Kolevar to Questions From Senator Salazar
    Question 1.: Earlier this year, DOE published a map of the draft 
designation of energy corridors in Colorado: http://
corridoreis.anl.gov/documents/docs/WWEC--PrelimDraftMap--Colorado.pdf
    The black lines on the map indicate potential corridors that are 
3,500 feet wide. I understand public comments were due by July 10, 
2006, but without a better map, I don't know how people could figure 
out exactly where the corridors would be located.
    Please provide me and other members of the Energy Committee with 
better maps of the proposed corridors. For Colorado, I would like a 
state-wide map that identifies the specific locations of the proposed 
energy transmission corridors.
    When will the draft EIS be released?
    Will there be another opportunity for the public to comment at that 
point?
    Can you assure me that these corridors will not affect private 
landowners?
    Answer. I recognize that the EPAct provisions are new, and require 
care as they are implemented. I look forward to working with you to 
ensure that DOE addresses these concerns as it works to exercise its 
statutory authority.
    It is my understanding that Section 368 only applies to Federal 
lands. The Federal agencies were not given the authority by this 
provision to designate energy corridors on private, tribal or State 
lands. Where possible, the Federal agencies are incorporating 
interagency operating principles (similar to best management practices) 
which outline various uses and stipulations for the energy corridors. 
If confirmed, I will work to ensure the interests of private landowners 
are harmonized with the implementation of Section 368.
    We received over 500 comments on the publication of the map, and I 
understand the interest in a greater level of map detail. However, the 
agencies are continuing to refine our analysis based in very large part 
on the comments received to date. Much more information (including GIS 
data) will be available in spring of 2007, when the entire document is 
published. Until that time, the agencies cannot release the 
deliberative body of work currently underway.
    A draft Programmatic Environmental Impact Statement for the 
proposed action will be published in the spring of 2007. The agencies 
anticipate hosting a 90-day comment period for review-including 
hearings in each of the 11 western states.
    Question 2. Congress took an important step in last year's Energy 
Policy Act by passing important provisions related to electric grid 
reliability. If confirmed, what steps do you think are necessary and 
what steps will you take to ensure the reliability of the Nation's 
electrical grid?
    Answer. If confirmed as Assistant Secretary, grid reliability will 
continue to be one of my top concerns and I intend to work within DOE 
to utilize the available tools to ensure grid reliability. There are 
two principal tools available to the DOE to help ensure grid 
reliability. The first is the ongoing research and development into new 
forms of generation, whether produced by fossil fuels, hydro, 
renewables or nuclear energy, and electric transmission and 
distribution technologies to help ensure greater control and efficiency 
of electricity delivery. The second includes the new responsibilities 
contained in the Energy Policy Act of 2005. The effort to designate 
corridors on Federal lands for transporting energy (Section 368), the 
electric transmission congestion studies (Section 1221(a)) to identify 
significant congestions areas that need to be addressed, and the 
discretionary authority to designate National Interest Electric 
Transmission Corridors as appropriate, all significantly enhance the 
DOE's ability to help improve the reliability of the electric grid.
    Question 3. If confirmed, what will you do to integrate more 
renewable energy into the electric grid while maintaining and improving 
the grid's reliability?
    Answer. I believe that renewable energy must be a major component 
of our nation's energy strategy if we are to achieve clean, 
domestically -produced and economical supply sources as a significant 
component of our nation's energy portfolio. If confirmed, I would seek 
to continue the partnership between the Office of Electricity Delivery 
and Energy Reliability and the Office of Energy Efficiency and 
Renewable Energy to find ways to reduce barriers to renewable energy 
integration. These barriers include lack of transmission, lack of use 
of state of the art integration methods within the industry, wind 
integration studies for system planning, and operational rules within 
electricity balancing areas.
    Question 4. How will you work with the Bureau of Reclamation and 
other federal agencies to consider how we can use our hydroelectric 
power sources to balance wind and solar sources for efficiency and 
reliability?
    Answer. If confirmed as Assistant Secretary, I would continue to 
work to improve DOE's interagency relationships with respect to various 
electricity projects. I already am working within the Department to 
coordinate and to implement diverse energy efficiency technologies to 
balance the variable technologies with base load, such as hydropower.
    Question 5. What role do you see for distributed generation to 
improve grid reliability and resistance to failure or attack?
    Answer. I believe distributed generation has an important role for 
improving grid reliability and resistance to failure or attack. By 
having a portfolio of strategically placed distributed generation at 
critical infrastructure facilities, such as hospitals, military bases, 
communications centers, emergency shelters, and refining facilities, 
the United States will reduce the impact of power outages whether 
natural or malicious. Distributed generation will also be critical at 
gasoline stations near evacuation routes to ensure the availability of 
fuel during an evacuation. The Department is working on the study 
required by Section 1817 of the Energy Policy Act of 2005 regarding the 
potential benefits of distributed generation. This report will address 
reducing vulnerability to terrorism and improving infrastructure 
resilience.
    Question 6. Does DOE evaluate the risk of increased vulnerability 
to our grid from large electric generating plants, in contrast to many 
smaller sources of generation?
    Answer. Yes, and both are important components of a reliable grid. 
As Director of the Office of Electricity Delivery and Energy 
Reliability, I have supervised OE's work with electric sector companies 
and States to identify and address vulnerabilities in certain, critical 
generating facilities. The office also focuses on R&D to help improve 
the competitiveness of distributed energy technologies. The presence of 
backup power can help to improve the resiliency of the grid by 
decreasing peak load requirements from large electric generating 
plants.
    I believe that distributed technologies are a part of a portfolio 
of technologies (including large electric generating plants) that could 
support improved resiliency of the grid. If confirmed as Assistant 
Secretary, I would hope to continue DOE's work to encourage efforts to 
improve these distributed technologies and facilitate their commercial 
penetration so that they can play a larger role in the future.

                                    

      

</pre></body></html>
